                  THE HEALTH EDUCATION ASSISTANCE



                              LOAN PROGRAM





                          December 1985

                     Control #   OAI- 85-   III- 047





Region III                                    Office of Analysis and
PhiladelDhia   Pennsylvania                       Inspections
                                             Office of Inspector General

                                             Department of P.ealth and

                                               Human Services

        .,..




                          MAJOR FINDINGS




Reasons for bank             participation in       HEAL vary from
guaranteed profit           to expanding      customer base, to com­
munity service.

The number of current participating lenders is sufficient
to meet the borrowing needs of HEAL students.


Neither schools nor lenders favor risk sharing.


     At 10% lender risk sharing, state agencies the
     majority of major banks and the Student Loan
     Marketing Association say they would continue par­
     ticipation.  The discontinued participation of three
     major banks , however , would reduce available HEAL
     loan funds by nearly 30% , as compared with the FY
     level.

     At 20%                     half of the
                            sharing, over
                               as well as localcurrent

                   risk
     participa ting banks , major                , say
     would result in at least
                                  participation.
     they would probably discontinue              This
                                   36% reduction
     available HEAL loan funds         , as compared with FY    84.
                                                  cause participating
     banks to offset their
     Risk sharing at any level would
                                    potential liability
     tightening       loan criteria and reducing total loan
     volume , resulting
     HEAL loans.
                                 in a further    decline in available


Banks feel       that HEAL       defaults     could be significantly
reduced by denying loans to high- risk borrowers.



Needy students   and those in surplus disciplines are
likely to be adversely affected by banks'   decisions to
tighten up lending criteria in response to risk sharing.
Other loan sources are not available to meet the
borrowing needs of these          students.
Schools and banks         have    had positive results from coun­
seling students on the           long- term   debt burden associa ted
with HEAL      borrowing.
                           INTRODUCTION



The Hea:1th Edbcation Assistance Loan (HEAL) Program , administered
by the Public Health Service (PHS), insures loans provided by non-
federal lenders for students attending eligible health professions
schools.  Most students may borrow up to $20 000 per year , up to a
maximum of $80 000 for all years.

Interest on HEAL loans is computed at the prevailing market rate
(T-Bill rate plus 3* percent) and accrues while the borrower is
school.  Interest is compounded , and unpaid interest is added
the loan principal    every six mon   ths.
Borrowers begin repayment nine months after            graduation.
                                                        The maxi­
mum repayment period is 25 years. Repayment may be deferred up
four years    for
                internship or residency training, and up to three
years for service in      the Armed Forces ,          the   Peace Corps    or the
National Health Service    Corps.
In case of default , death, disability or bankruptcy, the holder of
the  loan is reimbursed the      full
                                  amount of principal and accrued
interest from the Student Loan Insurance Fund (SLIF). Deposits to
the fund are derived from insurance premiums (currently 2 percent)
deducted from the loan principal at the time of award.

HEAL has grown dramatically since its inception in
September 30    1984, over $560 million had been loaned toAsover
                                                               of 1978.
   000 students , and 7, 969 borrowers were in repayment. An addi­
tional 332 borrowers (4% of total) were in default for $5. 2 million
or 5. 3% of the total $97. 4 million          owed.
                                           The average HEAL indebt­
edness was $13, 646 per borrower.
HEAL was intended to operate without a           Federal subsidy. To date,
it has not been necessary to appropriate any Federal funds to main­
tain the SLIF.

In March 1985, the OIG Office of Audit (OA) issued a report on the
HEAL program , which found that the SLIF was in danger of insolvency
in FY 1985 due to insufficient insurance premiums , unnecessary stu­
dent borrowing and ineffective collection efforts. The situation
if uncorrected , could result in a need for Congress to appropriate
$100 million over the next five years to cover HEAL defaults.

PHS has taken a series of corrective actions to insure the future
solvency of    SLIF. These include policy issuances to lenders and
schools , and a comprehensive NPRM now under final development.
addition ,   the Administration has proposed legislation to remove the
ceiling on    the insurance premium , with the HHS Secretary respon­
sible for determining     the   insurance premium           necessary to   insure
sOlvency of the SLIF.
Nevertheless , the OIG   is still concerned that despite recent and
proposed corrective actions           the rising borrower         default
(averaging $750 000 per month since December 1984) may prevent HEAL
                                                                             rate
from remaining solvent in the long term.


                                       1 ­

LENDER P ARTICIP A TION LIMITED

Financial institutions state agencies pension funds and HEAL
schools are e..ligible to become HEAL lenders. To become a par­
ticipating lender , an eligible organization must submit an applica­
tion for approval by the Secretary.

While over 60 institutions are currently approved HEAL lenders
most loans are being made by a few lenders. In FY 84, ten lenders
disbursed over 90% of the $237 million loaned , while 32 lenders
made ten or fewer loans.
The Student Loan  Marketing Association (SLMA), a Federally char­
tered corporation      isthe nation'         largest single
financing for postsecondary education , including HEAL
                                                         source of
                                                          loans.
                                                               SLMA
acquires HEAL loans through the secondary purchase of loans origin­
ally made by other    lenders.  Loans are purchased at par at any
point after the loan has been awarded. Currently, SLMA holds over
90% of all HEAL loans in repayment.
SLMA also manages the Assured Access Program , financing HEAL   loans
and managing them from      the time of     award. The Assured Access
Program was the largest disburser of
FY 84.
                                           HEALloans ($66.   6 million)
Other major lenders include the Bank of Indiana, Baybank Norfolk
County Trust Co. (Massachusetts), Chase Manhattan Bank (New York),
Bank One of Columbus (Ohio), and Florida Federal Savings and Loan.
These banks make loans across large geographical areas , rather than
confining coverage to their own state or local area. Higher educa­
tion agencies in two states , Pennsylvania and Wisconsin , are also
among the ten largest HEAL lenders.

RISK SHARING


On August  24    1984,  the Office of Management and Budget (OMB)
issued Revised Circular A- 70, "Policies and Guidelines for Federal
Credit Programs.    The revised circular establishes guidelines for
Federal agencies to follow "in reviewing         credit
                                            existing        program
legislation and proposing changes to such legislation.  Among
other provisions , A- 70 requires private lenders of Federally
insured loans to bear a " significant" portion (defined       as at least
20%) of the risk of loss from borrower default.
The HEAL program was established in 1978 to provide 100% Federally
insured  loans to
                help    meet financial needs of students in the
health professions.  The HEAL legislation quarantees Federal
payment to the lender of 100% of the unpaid      principal and interest
on a defaulted loan.
In view of this contradictory situation , the Department must either
propose legislation to amend the HEAL statute or request an exemp­
tion from the policy established by A- 70.

                                  - 2 ­

          --------------_--__
          ------------------ .----------------------"------ -----


PURPOSE AND APPROACH


The purpose of this inspection is to determine: 1) why so few major

ban k s par tic i a s HE AL l end e r s; 2) how to e n c 0 u rag e g rea t e r par ­
ticipation by     lenders;3) the potential impact of risk sharing on
HEAL; and 4) ways to reduce the borrower default rate to ensure the
continued solvency of the Student Loan Insurance Fund.
The inspection is based on personal and telephone interviews with
the ten  largest HEAL lenders (SLMA, two state agencies and seven
commercial banks), seven participating banks with              loan  limited
activity, and five major non-participating            banks.
                                                    Interviews were
also conducted with ten HEAL schools in six states representing six
different health disciplines , as well as with private experts and
organizations .
The inspection builds upon the extensive prior work done by OA and
PHS , and is intended to provide additional information for use by
Department officials in considering future program options.



                               MAJOR FINDINGS
I. BANK MOTIVES FOR HEAL PARTICIPATION DIFFER


Participating banks were asked what             factors    they considered in
deciding whether to become HEAL        lenders.
                                          The following chart shows
the five responses mentioned most frequently as incentives for HEAL
participation by major and local participating banks.

                  REASONS FOR BANK PARTICIPATION IN HEAL


             REASON                MAJOR LOCAL              TOTAL
                                   BANKS BANKS
                                    i2L___ i.2_____--1il___­
              Round Out

              Portfolio
              100% Federal

              Guarantee
              Expand Customer

              Base
              Service to School
              or Communi ty                                     10

              Pro fi t




                                     - 3 ­

    ~~~~~~~ ---------
---------
----------.   -------
                   ~~~.!_                             ~~~~


MAJOR PARTICIPATING BANKS


Of the ten largest                       HEAL lenders           five are commercial banks
      kin g         ns     ac r 0 s s    large geographical areas. These lenders
                                         reasons for participating in the HEAL
m a

cited three major
              I 0



program:
        lQ_          nd             tu     !-1                !fQll
         All banks contacted participate in the Guaranteed Student
         Loan (GSL)           program , and most make loans under PLUS (parent
         loans and auxiliary loans to assist students). Both
         programs are                  the Education Department.
                                        guaranteed by
                                           t HEAL ena b les th em to
         Par t i cipa t ing bank s ind i ca t ed tha
        offer a more complete loan service to eligible students.
              de    a l       ran t       Qff
        In a recent position paper                        , the
                                          HEAL Subcommittee of the
        Consumer Bankers Association (CBA) estimated that at the
                                                                      o f i





        current interest rate (T- Bill plus 3*%), pretax profit on
                          the acceptable pretax 90%.
        HEAL loans is approximately 0.        According to the CBA
        paper                                   return on                      assets for most
        lending institutions is approximately 1. 5%.
        In our survey, three major banks estimated net          tax)
        HEAL profit to be approximately 0. 33% , compared with about
                                                                                    (after
          0% for consumer loans. They stated they are willing
        accept a lower return because the 100% Federal guarantee
        eliminates any risk of loss.
              re c en t    ar tic 1     e in
                                     gJ9-
        cited the average return on all        bus in e s S se c t ion
                                                the    W 1!

                                          assets for commercial
        banks at about 0. 67%. A representative of Moody' , an
        independent financial   rating firm , confirmed that a lower
        profit ,e.g., 0. 33% , might be acceptable to banks because
        of the Federal guarantee.

        12-      .2__ S.l                       2.!  i2. ?!L-1
        Banks see HEAL borrowers as a pool of potentially  valuable

        customers with high                    future earnings.
                                                Their objective is
        to use HEAL to initiate a banking relationship which will

        continue after                  the borrower completes  his education and
        opens a practice ,                even if he lives in another         the  part of
        country.
LOCAL PARTICIPATING BANKS


Reasons for participation were discussed with nine banks which
limit loans to particular schools or geographic          These                   areas.
included seven local banks and two large lenders. Two primary
reasons were cited:
            i c
                !Q_ l2.    hQ21
        All nine banks mentioned service to a local school
                                                                  l!I'                 or COff­
        munity as a primary reason for making HEAL loans.

                                                  - 4 ­

     -----------------------------------------------------
-----------------------
      ~!_ ~!_!~_




     According to            the
                       student loan officer at one midwestern
     bank , "We do the banking for the local                university.
                                                          The
     feeling around here                is that if    the university weren't
     here    the town would die.

     G ua             r o f
     Six banks cited profit as a major reason for making
     loans.   Three of these banks sell their loans to
     annually or just prior to the start of repayment. They
                                                                        HEAL
                                                                        SLMA

     receive 100 percent of the loan balance plus all accrued
     interest. One small bank sees HEAL profit as favorable
     enough to expand its loan program. The loan officer for
     this bank stated "We see
     maker. We have the list of HEAL   as    guaranteed money
                                 HEAL schools in the midwest
     and plan to send a letter to each one soliciting their
     HEAL business.


NON- PARTICIPATING BANKS

All of the major HEAL lenders are located in the eastern part
of the U. S. Some time ago, PHS approached major banks in the
western states to discuss the HEAL program and encourage par­
ticipation.  At that time , the banks declined to participate.
We contacted   five ofthese banks to learn their reasons for
deciding against HEAL
tioned:
                               participation. Several      factors were men­

      nade
     Two banks stated that at the time HEAL was discussed , they
     were unable       to handle any additional     student loan acti­
     vi ty, becauseof              their manual processing systems and
     limited staff. One of   these banks has since adopted an
     automated system and is now interested in becoming a HEAL
     lender.
               ~f_   Q.Y~~
                                   Ba       !i! ~Sl
     Two banks cited competing demands for limited funds , low

     profit associated with student loans , and corporate deci­
     sions to limit existing student loan programs as factors
     contributing to          non-participation in HEAL.
     Excessive Future Debt Burden for HEAL Borrowers
     One bank stated that the high interest rates , deferred
     payment and long repayment period create an excessive
     future debt burden for HEAL borrowers which many will
     unable to meet.


     For example , a $10 000 loan borrowed at 12% interest capi­
     talized semi-annually amounts to $25, 000 after eight years
     of deferment. Over 15 years of repayment , the borrower
     would pay over $300 per month for
     $55,   000.                            total of nearly
               Most HEAL students borrow far more than $10 000
     during their four years               in school.
                                          Actual repayment can
     extend up to 25 years. One bank officer stated , "I would


                                        - 5 ­

                ~~~

         not encourage a student to get a HEAL loan because the way

         it is set up predisposes the student to default later on.


               erm and Size of Loan
         One bank mentioned this as both an incentive and a disin­
         centive for    participation. On the positive    side,
                                                              banks
         find larger loans attractive because the origination costs

         are no higher than for smaller loans (like GSL which has

         an  annual limit of $5, 000 for graduate students).
         However , the large loan size increases the risk that it
         will not be   repaid.
         A second bank stated that eight years is too long to hold

         a loan without receiving any payments to interest or prin­

         cipal.
         l~!~          nte       fQll    i0
         On most consumer loans , interest is collected every month.
         HEAL's semi-annual      interest payment
                                             or capitalization is
         not attractive to       one   lender. For
                                             this bank , even the
         quarterly interest payments required under GSL are con­
         sidered too infrequent.

II. CURRENT LENDERS ARE MEETING ALL HEAL BORROWING NEEDS


Two types of participation agreements , standard and comprehensive,
are available to HEAL    lenders.Under the standard agreement , the
bank sends each application       to
                                  PHS for confirmation of Federal
guarantee authority prior to disbursing       the loan.
                                                     The comprehen­
sive agreement allows the lender to make loans without receiving
prior guarantee   authority.The major HEAL lenders have comprehen­
sive agreements.


Earlier this year , PHS notified standard lenders that the Federal
guarantee authority for FY 85 had been exhausted. These banks have
been unable to make HEAL loans since that time. However , HEAL
borrowers have still been able to get loans from comprehensive len­
ders.
All participating banks and schools in our sample felt that the
current lenders are sufficient to meet the borrowing needs of HEAL
students.  Most schools saw no reason to solicit participation from
a localbank.   The financial aid officer at a southern school said
"We wouldn't be interested in using our local bank for HEAL loans.
Only 5% of our students are from this state , so there would be very
little secondary business for      the bank.
                                           We prefer dealing with a
few major banks. They have systems set up and we know what kind of
service to expect.

Even when  a school experiences problems with one lender , there
no difficulty finding another to take its       place.
                                                     A school finan­
cial aid officer stated , "Loan processing delays at one major bank


                                   - 6 ­

 caused us to change to another lender last           year.
                                                    Now our loans are
 processed within 10 days , and any questions are answered promptly.

 One student a1 officer indicated that while a local bank might be
 able to process loans faster , she was satisfied with their current
 lender.
 While there
 needs , it appears
                     are enough
                         that for
                                  lenders   to meet current HEAL borrowing
                              small banks , the relationship with PHS
 may affect their decision to participate in HEAL. One example of the
 effect of  this relationship is a midwestern bank which reported it
 dropped out         of the program earlier this year due       to excessive
delays in receiving PHS guarantee authority for individual loans.
This bank had been making loans to students at two local HEAL
 schools.  Another bank noted that processing delays experienced
with PHS were a problem but not serious enough for them to discon­
 tinue participation.
Some banks expressed confusion about            the
                                           PHS notice      FY
Federal guarantee authority for HEAL loans had been exhausted.
                                                                  that
few thought that HEAL had gone out of existence completely. Others
were concerned  about what they perceived as an uncertain program
future.  Standard lenders were awaiting word of renewed guarantee
authority, so that new HEAL loans could be awarded.

III. LENDER REACTIONS TO RISK SHARING VARY


In May of this year , PHS hosted a meeting of major HEAL lenders and
HEAL schools to discuss the issue of risk sharing and its applica­
bility to HEAL. At that meeting both lenders and schools opposed
risk sharing.    Lenders stated        that
                                       the anticipated reduction in
profits     associated with risk       sharing could cause them       to stop
making HEAL loans       entirely.
Lender reactions to risk sharing varied      based on four factors:
       Lender status as a     commercial bank state agency,      private
       non-profit corporation;


2 .	   The size of the bank and volume of HEAL loans made;

3 .	   The percentage of risk sharing proposed coupled with bank lati­
       tude for tightening lending criteria; and

4 .	   Whether the lender sells loans              SLMA       keeps   th em
       repaymen t.

Two levels of lender risk sharing, 10% and 20% , were discussed with
16 current participating lenders , five non-participating banks , and
one bank which         recently discontinued participation.
bank responses are presented in Appendices A through          C. AIndividual
                                                                    summary


                                      - 7 ­

    ----,      .!         ...                      -----
                                                      !!!-     .!!!~-           -----------
of  reactions from
following chart.
                                the              participating lenders                                 shown        the

          REACTIONS OF 16 PARTICIPATING LENDERS TO RISK SHARING


      % of Risk
          ha        in   5___--
                                Definite
                                 r 0	
                                         Lender Possible                                                 Total
                                                                                                        Drop Out
                                                                                           Q. u t s


                10%              5 (31%)	                   3 ma    j0r                                  5 01%)
                                                            2 local
               20%               7 (44%)	                   3 ma    j0r           2 major                9 (56%)
                                                            4 local                                   or 7 (44%)
All banks who found risk sharing acceptable at any level indicated
that they would continue participation only if they could offset
their risk  by using strict loan criteria
borrowers. Current HEAL regulations do nottoallow
                                              screen out high-risk
                                                   the use of such
loan criteria by banks.
At 10% risk sharing, five lenders (31%) stated that they would drop
out of the program. Two                          additional             lenders (both small banks)
indicated they would drop out at 20%. Two major lenders who would
If the inspection results are indicative of lender reactions
continue at the 10% risk level, would consider dropping out at 20%.
nationwide ,implementation of 20% lender risk sharing could mean a
loss of more than half of the current participating lenders.

     0S    MA        Q!-1!!Q~           .hL~ 	
                                                   T A Y	                 P R QQ.!!   AM   (S e e A p pen   d    x A)
    SLMA voiced a continuing commitment to student loans in general
    and to HEAL in              particular.
                                 Student loans  is SLMA' s business.
    The Assured Access Program would continue to be a major lending

    source, and SLMA would continue to buy HEAL loans through the
    secondary market. SLMA is the largest HEAL lender , disbursing
    over $66 million through the Assured Access Program in FY 84.
    Three major banks stated that risk sharing would cause them to
    stop making HEAL loans entirely. Together , these banks awarded

    over $70 million in HEAL                        loans
                                     (nearly one- third of all HEAL
    funds disbursed) in FY 84. These banks do not sell their loans
    to SLMA. One bank is                         actively
                                     involved in buying HEAL loans
    from other banks through the secondary market.
    Four large banks would continue to make HEAL loans under 10%
    risk sharing.  Three of these banks sell most loans to SLMA
    prior to             repayment , so are not concerned about risk sharing, as
    the risk transfers to SLMA      the point of       atThese four
    banks loaned over $52 million in FY 84 (24% of the total amount

                                                                                           sale.
    loaned).


                                                    - 8 ­

      --------------------------
      --------------------------                         ----

      State higher education agencies in Pennsylvania                           and Wisconsin
      use tax-exempt bond funds to make low interest                            HEAL loans to
      state residents.            These state agencies will continue making
      HE A L loa n &. un d er r i s k s h a r in g . Pen n s y I van i a p I an s t 0 sell HE A L
      loans to SLMA , while Wisconsin keeps them in repayment. (OMB
      Circular A- 70 " prohibit(s) Federal guarantees of loans funded
      by   tax-exempt obliga tions. " However some sta tes now using
      these bonds to fund HEAL loans are currently permitted to con­
      tinue the practice.

      hQf!.h_        ~Q! S   GA   VE MIX   RES fQ! SES   (See Appendix
      Seven banks with limited HEAL loan activity were interviewed.
      Of five significant responses received , one bank would continue
      to make loans under 20% risk                sharing.
                                                Two others would drop
      out at 20% but would continue to participate at 10% , using
      tighter lending             criteria.
                                  Two banks stated they would discon­
      tinue participation entirely if any risk sharing were adopted.

      ONE NON- PARTICIPATING BANK NOW INTERESTED                  (See Appendix
      Of five non-participating banks contacted , one expressed defi­
      nite interest in becoming         a HEAL lender   even under risk
      sharing,        so long as tighter loan criteria could be applied.
      This rapidly growing bank wants to expand its customer base at
      the professional level , and feels that HEAL is a good vehicle
      for doing
      HEAL loan
                       so.
                      Tighter control over who would qualify for a
                       is
                    expected to reduce the probability of borrower
      default.
IV.             OF    RISK SHARING ON HEAL

Current HEAL regulations   do not allow lenders to review credit
histories or apply lending criteria normally used when evaluating
consumer loan  applications. The proposed regulations , when fina­
lized will require schools to include all other aid sources
(family contributions , borrower and spousal income) in calculating
the amount of HEAL funds a student can borrow. Lenders will
required to review credit histories and                   financial aid transcripts
and to exercise " sound business judgment" in making HEAL loans.
While these measures are likely       result in smaller loans or
HEAL loans at all for some student borrowers , they are considered
necessary to ensure the continued solvency of the Student Loan
Insurance Fund (SLIF).
Lenders in       our survey indicated that risk sharing would have
major impact on the               future of the HEAL      program. Four anticipated
results were mentioned:


      FEWER HEAL LOANS AVAILABLE

      Five banks have indicated that                 any risk      sharing would cause
      them to stop making HEAL             loans.     Other banks would reduce the
      number and size of loans awarded                using strict lending criteria


                                            - 9 ­

-------------    ------------..---------------.-----
  -------""-----------------------.
         --                 ..           ----        -------
                                    ------------------- --.-

   to eliminate high-risk                    borrowers.
                                       Banks mentioned co-signers
   collateral, and a detailed risk analysis of the borrower' s abi­
   lity to            repay based          upon future projected earnings by disci­
   pline      , as       easures they would likely adopt under risk                                 sharing.
   SLMA's Assured Access Program would continue as a major source
   of HEAL loans , possibly with tighter loan            Assuming
   continued availability of tax-exempt bond funds , students
                                                                                  criteria.
   Wisconsin and Pennsylvania could continue to receive low-
   interest HEAL loans through state higher education                                          agencies.
   Overall            it is anticipated that
   available in most states due          to fewer HEAL loans would
                                                               strict  1) the application of
   lending cri teria by banks and 2) fewer banks making HEAL                                           loans.
   The following chart shows the                                      anticipated reduction          in    HEAL
   loan availability based on lender reactions to risk sharing.

         PROBABLE REDUCTION IN HEAL LOANS UNDER RISK SHARING



Risk
% 0 f
 h a r
      Dropouts Number %
                 (M
                       Pro b a b Ie

                                      !s~l__--   2K-.h2~
                                                                 ns
                                                                         F Y 84 Len   din g
                                                                              of Dollars % of
   10%                                                     764          28.           $70. 0   m.   29 .
  20%                                            11,       712          34.           $85. 7   m.   36.


  In FY 84, some 34, 000 students borrowed over $237 million in
  HEAL loanfunds. Based on the survey results , 10% lender risk
  sharing could be expected to result in a reduction  of nearly
  30% in HEAL loan funds from FY 84 levels. At 20%                                              lender risk
  sharing, loan funds would be reduced by 36%.
  These figures do not reflect the anticipated decrease in loans

  by participating banks                             resulting           from the       use of       tighter
  lending criteria. Therefore , the actual reduction in HEAL loan

  funds under risk sharing is likely to be much higher than 36%.
  RESPONDENTS FEEL OTHER LOAN SOURCES WOULD NOT REPLACE HEAL


  Lenders and HEAL schools were asked what other sources                                            could
  tapped if HEAL loan funds were reduced or eliminated.

         Q~h_ ~!2            ir
         Because of               its
                          high unsubsidized interest rate, HEAL
         considered the loan of last resort by lenders and schools.
         In  packaging student aid , school financial officers rely
         first on GSL , PLUS , institutional or state aid , and other
         resources , recommending a HEAL loan only after all other
         sources are exhausted. HEAL funds make up the difference
         between the. standard student budget and the total of all
         other available resources.


                                                           10 ­
-------------------------------

        School funds limited or none
        HEAL school responses varied by professional specialty and
        overall wealth of           the school.
                                           Medical schools appear most
        likely  to have some limited reserves which could be used
             t u den t loa n s                                                ide
        funds to
        for                    A few me d i c a I s c h 0 0 Is h a v e set as
                         subsidize interest                 payments on HEAL loans.
        Dental , chiropractic            and podiatry schools have virtually
        no reserves to devote             to student         aid.
        G r a d Ed Pro      men t s HE A L
        SLMA recently established its own private loan program
                                   E!~



        GradED   , as a supplement to HEAL. Health,                     engineering, law
       and business administration graduate students may borrow
       up to $7, 500 per year not to exceed $15, 000 total.
       Interest rates are comparable to HEAL. Interest must be
       paid while in school and the entire loan must be repaid
       within 15 years. GradED requires a co-signer. Currently
        available in only 13 states , SLMA anticipates expansion
        other states in the near future.
       SLMA emphasized that GradED was established to complement
       HEAL, not to take its               place. If
                                         changes in HEAL were
       leave a major gap in loan availability, SLMA would likely
       modify the GradED program to help fill the gap.

       f.!!Y~l~_           E'!Qg
       While all banks in                our survey
       have established private student loan programs. Three
                                                            participate       in GSL,      none
       major banks indicated that they are in the preliminary
       stages of considering private      programs , which could
       go into effect if HEAL wereloandiscontinued.    While
       details are yet available, it is clear that strict   loan
       criteria would be an integral part of any private sector
       student loan program.

Respondents felt                     sources would not be suf­
                           that other existing
ficient to meet student borro!'.ing needs
reduced or eliminated.
                                           if HEAL funds were
GREATEST IMPACT ON NEEDY STUDENTS

While not its specific focus or intent , the effect of HEAL has
been to enable many students from lOH- income backgrounds to
pursue graduate degrees in the health professions.

Schools and lenders stated unanimously that while students from
middle- incomefamilies would probably be able to continue their
education by being more frugal                          getting part- time jobs
tapping family   resources  many low- income students
school would be forced to drop out. With lower earning abil­
ity, these non- graduates would be required to begin repayment
immediately. Many would be in danger of default.
Also , because tighter lending criteria would screen out indivi­
duals considered             by        banks to        be poor credit risks many
pro s p e c t i v e st u d - e n t s fro m low - i n com e b a c k g r 0 un d s w 0 u 1 d not b e
able to begin their graduate education                       at all.
                                           1 1 

                   ~~~~ .!_


    Schoo Isand  bank s exp r es s ed concern tha           risk
                                                      shar ing wou ld
    ultimately deprive deserving low- income and minority students

    as well as those from medically underserved areas                        from
    entering t he health professions.  Some respondents suggested
    that the  Department consider alternative ways      solve this to
    possible consequence of
    to needy students.
                                      risk
                                 sharing, e.g. , direct assistance
           EALTH        QI~~   ONS GRADUA!          OME DISCIPL
    Several lenders ci ted       risk analysis of             future
    ability to repay a HEAL loan as one of thethemeasures
                                                  borrower'
                                                          they would
    adopt under risk sharing. Lenders stated they would be less
    likely to make loans to students in disciplines considered by
    While not direct intent of risk sharing, thegraduates.
    the banks to have a current or projected surplus of
    decrease in graduates in surplus disciplines
                                                           resulting
                                                            is seen as a posi­

    tive consequence.



    RESPONDENT SUGGESTIONS FOR REDUCING DEFAULT

Schools and lenders , out of concern for            the effect of       excessive
debt burden on borrowers and the future             of HEAL , have      suggested
measures for HHS consideration. Some of these controls have been
adopted by individual HEAL schools or local banks.

The following suggestions  are presented in order of the frequency
mentioned and   the strength of impact respondents felt they would
have in helping to reduce the HEAL default          rate.
    2.!~_ !!Y~-    ou
                  !2~~1!!2      o f          !2!
   Both   banks and  schools see      as an essential step
                                             this
   reducing the level of borrowing as well as the future default
   rate.  Individual schools and banks have developed handbooks
   charts , and videotapes; schools include the topic in their
   debt management curriculum; bank loan officers and school
   financial aid staff hold joint orientations for new students.
   Respondents suggested a more active role by PHS in developing a

   comprehensive counseling package for HEAL borrowers.


      2~.!~                           ents
                                  During School       Deferm  and
   HEAL borrowers may pay any part of the interest or principal
   while in school or during deferment with no
   small percentage of borrowers take advantage of           penalty.
                                                          Only a
   Since unpaid interest         is                      option.
                              capitalized every six months the
                                                                this
   ultimate debt burden for most borrowers far
   originally borrowed. Banks have suggested exceeds  the amount
                                               that even partial
   interest payments could significantly reduce a borrower' s ulti­

   mate burden , reducing the likelihood of default.



                                        12 ­

~~~                g~-!
~~~       !-    ~~~         ~~~~~~
                                                    !g               ~~~



              x i m um         1-~Q row i    !Q_       QQQ
The current limit for most HEAL borrowers is $20 000 per year.
A m 0 n g ban k s- in t e r vie wed , the a v era g e F Y 8 4 b 0 r row i n g
                                                                              per s t u ­
dent ranged from $4 000 to $12                      500.
                                                     Some banks suggested that
den being assumed by student borrowers , therebyterm                        debt bur­
a reduced loan limit would also reduce the long-
                                                                       reducing the
probability of default.
 isb     HE A L I~g    F0    o n !h- I n !~.!Y
The proposed HEAL regulations establish six months as the maxi­

mum period for which HEAL funds could be disbursed. One bank
suggested that a four-month maximum would significantly reduce

interest accrual over the life of the loan.

             ~!Q_   -E~Y-!2!
                    Fu
Some schoolsset
         ~QhQQ1-

                aside
interest payments.    funds to assist students with                                  HEAL
                                 Specific arrangements               vary. One school
makes low interest loans to students for this purpose. Others
pay a portion of              the interest for
                                   needy students. Many stu­
dents who qualify
interest from their own funds.
                               for
                       this assistance then pay the remaining

        o r t
                 !lQg 1-f l!_ e n QZ- 2!2_      rse
This provision took  effect in California earlier this year.
                                                                               n t


Reporting student loans at the time of disbursement will allow
banks to control an individual'    overall borrowing, whether
through student loans or consumer loans , and
serve as a disincentive to borrower
                                               is expected to
                                                         default.
                   L0    !Q_           Te           ud
One school's policy is not to recommend first term students for
HEAL loans. The rationale is that many students
drop out during the first term for other than financial reasons
                                                                           are likely
and that these students would be prime candidates for default.

 !2Z-
     T r

          g~Q           KEQ    llgg       rr
Most HEAL borrowers are required to take state boards in order

to be licensed to practice. Licensing boards require final
transcripts in conjunction  with the examination. One HEAL
school will not release transcripts for known delinquent
borrowers until payment arrangements are made. (This would
affect only those borrowers who delay taking state licensing
exams until after the end of the nine- month                        grace period.




                                            13 ­

VI. CONCLUSIONS

The inspection found              that     while banks differ somewhat in their
rea son s   for b    c 0 m i n g HEAL           , the n
                                         Ie n d e r s       0 f par tic i pat in g I en­
                                                             u m b e r
ders have thus far been                 sufficient to meet the borrowing needs        of
HEAL  students. At this point , there does not appear to be a need
to solicit participation from additional                      lenders.
Our survey indicates that most lenders would be willing to continue

HEAL participation with risk sharing at the 10% level , but only if

allowed to adopt loan criteria similar to those applied to consumer

loans , including credit checks , co-signers and/or collateral , and
risk analysis of      potential borrower'   future ability    repay.
The result would be a reduction in available loan funds of nearly
                                                                                       to
30% , as compared wi th the FY 84 lending level.

While some banks , the Student Loan Marketing Association , and some
state higher education agencies would continue to make HEAL loans
at the 20%          risk
                  sharing level , the discontinued participation by
most major banks could                  result
available HEAL loan funds as compared with Fr
                                                        in   reduction of         over 36% of
                                                                         84 lending.
If risk  sharing is enacted     and within                        the
                                                 constraints of OMB
Circular A-         70
                 regarding tax-exempt bond funding of Federally
guaranteed loans , PHS may wish to consider soliciting interest from
higher education agencies in states with substantial HEAL borrowing
as one way of filling the anticipated lending       Some additional
non-participating banks may also be interested in becoming new HEAL
                                                                         gap.
lenders , as long          as
                     they have clear authority to exercise control
over who receives a loan and the amounts to be loaned.
The credit check provision of the proposed HEAL regulations will
result in fewer loans available for needy and other high-risk stu­
dent borrowers. Risk sharing is                          likely to
                                                      reduce funds
availability for needy students and those in further
                                              surplus disciplines.
Most low- income borrowers will be unable to qualify for loans if
banks apply their usual lending criteria. Students in surplus
disciplines may be considered poor risks because of limited future
earning potential.
Lack of knowledge of the future debt consequences of HEAL borrowing
causes some
needed. Through
                    students     to
                                 borrow more HEAL funds than absolutely
                         active counseling efforts by banks and schools
some students are borrowing less and repaying at least a portion of
the  accrued interest            while
                              in school   thereby minimizing their
sider designing        the risk of default.
future debt and reducing                       PHS may wish to con­
actively counsel student borrowers onboth banks and schools
                             program involving
                                       their future debt burden
based on the amounts borrowed , the capitalization of interest and
the long period prior to repayment.





                                               - 14 ­

-----------------------------------------_
------ --------------------------------______
       __--_-_          __--~~~
                       -__
                        ___                                       -------
                       -------------------------------------------------
                     ---------------------------------------------------
                                                                  --_---­
                                                                   ____-­




                                                                                             APPENDIX A


                                           REACTIONS TO RISK SHARING

                                               MAJOR HEAL LENDERS


LENDER                   HEAL LOANS ($                  LOANS      REACTIONS TO RISK SHARING

LOCATION                 MADE FY 84 TOTAL)              SOLD TO


New York 2, 669 loans (7. 8%)                           No
                                                        SLMA?


                                                                     Any risk sharing would end

Indiana 6, 346 loans (18. 6%)
lE~ 1____--_                                111
                                                        No
                                                  Q!l____--_--_--_ pa r t

                                                   !1--___--__--
                                                                            ic   at   ion.
                                                                     Any risk sharing would end
                                                                     pa r tic i at ion.
Florida                  749       loans
                                     (2. 2$)                         Any risk sharing would end
( bank)                  $6.         (2. 7%)                          articipa tion.
Mass.                     564 loans (10. 5%) Yes                     10$ or 20% risk sharing are
(bank)                   $25. 7 m.  (10. 8%)                         acceptable because they
                                                                     sell loans to SLMA.
Ohio                    1,   823   loans     (5. 4%)   Yes           Risk sharing would not end
(bank)                   $10. 7     m.       (4. 5$)                 participation because loans
                                                                     are sold to SLMA. They are
                                                                     considering keeping loans,
                                                                     and would restrict            loans to
                                                                     local customers.
Missouri                     501 loans       (4. 4%)   Yes           Would continue loans at 10%
(bank)                   $10. 2     m.       (4. 3%)                 risk sharing, wi th credi
                                                                     checks and co-signers.
                                                                     At 20% , would consider

                                                                          !25-
                                                                               t h E.!2 g ram
Iowa                     447 Loans           (1.3%)                   10% risk sharing acceptable
( bank)                 $5. 5      m.        (2-3%)                   with tighter controls.
                                                                      At 20% , would consider

Washington ,
               MA
                       10
                    l_-- !QQ
                                           A.
                              063 loans(29. 6%) N.
                                                  l!l______-------
                                                                     l~
                                                                        av     !h~--.!2 ~.r
                                                                     Risk sharing would not
                                                                      f f ~~l_ E~.!!!Ql      !!2
                               3 m. (3. 1%)
          .h


Penna.  949 loans (2.
(state $7.
                                        8%) Yes                      Risk sharing would not
                                                                     affect participation.
~g~!2~Zl______------
Wisconsin 1
(state $17. 8
       ~Zl______--------
                                        5%)
                                        9%)
                             669 loans (4.
                                     m. (7. No                       Risk sharing would not
                                                                     affect participation.
----------------
--------_
-----------------
-----------__
-------_____
------______
--------____-­        ------------=!!_
---------------------------------
                    --------______-=!!_               -.----                  ---------
                                                                              ~~~          ----
                                                                             .:_------------
                                                                               ----------------
                                                                                        ---------
                                                                                          _____­              p.           ~.:




                                                                                                         APPENDIX B



           PARTICIPATING BANKS WITH LIMITED LOAN ACTIVITY

                     REACTIONS TO RISK SHARING




BANK         HEAL LOANS                           LOANS          REACTIONS TO RISK SHARING
LOCATION     MADE FY 84                           SOLD TO


Ohio


Arkansas 156
             $363,        000
             54 loans Not Yet - 10%

                            Yes -
                                                  SLMA?

                                                                   acceptable with tighter
                                                               loan criteria.
                                                                              w o u l d
                                                                                            2E-
                                                                                                   o u t .



                          loans                                Would drop out with any                        risk
            -.2.2.Q.J QQQ--------­                             sh


                          000
                            Yes--
                                                                     r i n


Missouri     55 loans                                          Has dropped out of program.
             $579,                                             However , risk sharing at 10% or
                                                                                                    acce

                                                 No -                                YLE.
                                                               2 0                                                 a b l


Nebraska 7 loans                                               Would drop out with any                        risk
             1211.    QQQ___----------                         s h ~!:!!2

Minnesota 2 loans                                Not Yet - Risk sharing okay at                        10% or 20%.
             111-l
            loans No - Unsure
                      Q.QQ__------------------


Illinois 10 Q.QQ_------------------------­
Iowa 4 loans No -
             .!2Q.l


               J.-l      Q.---
                                                               10% acceptable.
                                                                      Q!1._         l:_   .!21?_
--------------------
----------------------------
-----------------          -----.-
-------------------_.-----------­
                  ..-----------=----
                          --
---------- ---- ---------- --.-          -.     -------------
                                                   ------
                             - _._-----------------------­
                                            -----.----------------
                                         -----------------------
                               ------'- ----..--------.----------------------



                                                                     APPENDIX C


          NOlf-- ARTt--IP A   TING BANKS PREVIOUSLY CONTACTED BY PHS
                              REACTIONS TO RISK SHARING




BANK
              WHY NOT               INTERESTED
       REACTION TO

LOCATION
          INTERESTED               NOW?           RISK SHARING

                   ORIGINALLY

Arizona            Manual system ­        YES          10% or 20% okay.

                   could barely
                       Primary motive is

                   handle existing                     expand customer base.
                   student loan

                   workload                            Bank would require
                                                       credi t   checks.
California         Manual system          MAYBE        Definitely not

                   limited staff          NEXT         interested
                                          YEAR

California         Not part of            MAYBE        Would consider
                   bank strategy.
        IN THE
      participation
                   Did    not want to     FUT URE      but less favorably

                   expand student
                   loan program.
                   Limited loan funds
                   available.
                   Limited ability
                   service loans.
                   Current loan limit
                   too high.                           Definitely not

California         Future debt burden                   interested
                   too high.
                   Long- term negative
                   effect on borrower.

Washington         Profit Margin too
                  Definitely not

                   low.                                interested
                   Bank decision 

                   limit student

                   loans
